Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


ACUTE-CARE HOSPITALS IN TEXAS
  DID NOT ALWAYS RECONCILE
    INVOICE RECORDS WITH
     CREDIT BALANCES AND
 REFUND TO THE STATE AGENCY
       THE ASSOCIATED
   MEDICAID OVERPAYMENTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        May 2014
                                                      A-06-11-00060
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the program.
At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the
program. Each State administers its Medicaid program in accordance with a CMS-approved
State plan. Although the State has considerable flexibility in designing and operating its
Medicaid program, it must comply with applicable Federal requirements. In Texas, the Texas
Health and Human Services Commission (State agency) supervises the administration of the
Medicaid program.

The State agency contracts with the Texas Medicaid and Healthcare Partnership (TMHP) to
process claims and financial adjustments. Providers submit claims to TMHP and notify TMHP
of financial adjustments. The Federal Government reimburses the State for its share (Federal
share) of State medical assistance expenditures according to a defined formula.
Credit balances may occur within patient accounts when a provider’s reimbursement for services
it provides exceeds the allowable amount or when the reimbursement is for unallowable costs.
Credit balances may also occur when a provider receives payments from Medicaid and another
third-party payer for the same services. Additionally, credit balances may occur when providers
record reimbursements for services incorrectly. Credit balances do not always result in
overpayments due back to the Medicaid program. For example, a credit balance may occur when
money is due back to the patient.

Effective March 23, 2010, States have up to 1 year from the date of discovery of an
overpayment for Medicaid services to recover, or attempt to recover, the overpayment before
making an adjustment to refund the Federal share. Except for overpayments resulting from
fraud, the State must make the adjustment no later than the deadline for filing the quarterly
expenditure report (Form CMS-64) for the quarter in which the 1-year period ends, regardless
of whether the State recovers the overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing
of an overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal
recoupment action. Discovery may also occur when the provider initially acknowledges a
specific overpaid amount in writing to the State. If a Federal review (such as an audit)
indicates that a State has failed to identify an overpayment, the overpayment is considered
discovered on the date the Federal official first notifies the State in writing of the overpayment
and specifies a dollar amount subject to recovery.

Texas regulations require providers to repay or make arrangements to repay identified
overpayments or other erroneous payments as identified by the State agency. However, Texas
regulations do not require providers to refund Medicaid overpayments within a specified time
period.




                                                  i
This audit is part of a multistate review of credit balances at acute-care hospitals, nursing
facilities, and certain noninstitutional providers. This audit focused on acute-care hospitals in
Texas.

OBJECTIVES

Our objectives were to determine whether acute-care hospitals reconciled Medicaid credit
balances in patient accounts and refunded Medicaid overpayments to the State agency.

SUMMARY OF FINDINGS

Of the eight acute-care hospitals in our sample, one hospital always reconciled patient
accounts and refunded associated Medicaid overpayments to the State agency. However, the
seven remaining hospitals in our sample did not always reconcile patient account credit
balances and refund to the State agency the associated Medicaid overpayments. One of these
seven hospitals reported most of its overpayments, but the State agency had not recovered the
overpayments during our fieldwork. For these seven hospitals, we sampled a total of 148
patient accounts with both Medicaid payments and credit balances and found that 81
contained Medicaid overpayments and 67 did not. The Medicaid overpayments associated
with the 81 patient accounts totaled $30,057 ($18,472 Federal share).

On the basis of these sample results, we estimated that the State agency could recover an
additional $15,299,033 ($10,538,912 Federal share) from hospitals and obtain future savings if
it enhanced its efforts to recover Medicaid overpayments in hospitals’ accounts.

The hospitals did not identify and refund Medicaid overpayments because the State agency did
not require them to exercise reasonable diligence in reconciling patient account credit balances to
determine whether overpayments had been made. Also, the State agency did not require
hospitals to submit reports that showed all identified Medicaid overpayments recorded as credit
balances in the hospitals’ accounting systems.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund the $18,472 Federal share to the Federal Government for overpayments paid to the
       selected hospitals and

   •   enhance its efforts to recover additional overpayments, estimated at $15,299,033
       ($10,538,912 Federal share), from hospitals and realize future savings by requiring and
       ensuring that hospitals exercise reasonable diligence in reconciling patient account credit
       balances and refunding the associated Medicaid overpayments within a specified time
       period.




                                                  ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
The State agency described corrective actions that it had taken or planned to take in response to
our recommendations.




                                                iii
                                           TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION ..................................................................................................................1

         BACKGROUND ...........................................................................................................1
           Medicaid Program ..................................................................................... 1
           Medicaid Credit Balances ............................................................................ 1
           Federal and State Requirements Related to Medicaid Overpayments .....................1
           Acute-Care Hospitals ...............................................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY ......................................................2
            Objectives ................................................................................................................2
            Scope ................................................................................................... 2
            Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS .........................................................................4

          MEDICAID OVERPAYMENTS NOT REFUNDED..................................................5

          INADEQUATE OVERSIGHT AND LACK OF
            REVIEW AND REPORTING REQUIREMENTS ............................................... ...5

          MEDICAID OVERPAYMENTS AND ESTIMATED
           STATEWIDE RECOVERY ..................................................................................... 5

          RECOMMENDATIONS ..............................................................................................5

          STATE AGENCY COMMENTS............................................................................ .....6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

           C: STATE AGENCY COMMENTS




                                                                     iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities (Title XIX of the Social Security Act (the Act)). The Federal and State
Governments jointly fund and administer the program. At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Texas, the Texas Health and Human Services Commission
(State agency) supervises the administration of the Medicaid program.

The State agency contracts with the Texas Medicaid and Healthcare Partnership (TMHP) to
process claims and financial adjustments. Providers submit claims to TMHP and notify TMHP
of financial adjustments. The Federal Government reimburses the State for its share (Federal
share) of State medical assistance expenditures according to a defined formula (42 CFR
§ 433.10).

Medicaid Credit Balances

Credit balances may occur within patient accounts when a provider’s reimbursement for
services it provides exceeds the allowable amount or when the reimbursement is for
unallowable costs. Credit balances may also occur when a provider receives payments from
Medicaid and another third-party payer for the same services. Additionally, credit balances
may occur when providers record reimbursements for services incorrectly. Credit balances do
not always result in overpayments due back to the Medicaid program. For example, a credit
balance may occur when money is due back to the patient.

Providers record and accumulate charges and reimbursements for services in patient accounts.
Providers should reconcile patient account credit balances and, if the reconciliation identifies a
Medicaid overpayment, the provider should refund the overpayment to the State. The State
must refund to CMS the Federal share of the overpayment (the Act, § 1903(d)(2)(C), and 42
CFR part 433, subpart F).

Federal and State Requirements Related to Medicaid Overpayments

States are responsible for recovering from providers any amounts paid in excess of allowable
Medicaid amounts and for refunding to CMS the Federal share (42 CFR § 433.312). Effective
March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an
adjustment to refund the Federal share. 1 Except for overpayments resulting from fraud, the

1
 See the Act, § 1903(d)(2)(C), and the Patient Protection and Affordable Care Act, P.L. No.111-148,
section 6506(a)(1)(A).

                                                        1
State must make the adjustment no later than the deadline for filing the quarterly expenditure
report (Form CMS-64) for the quarter in which the 1-year period ends, regardless of whether
the State recovers the overpayment (42 CFR § 433.320).

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of
an overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal
recoupment action. Discovery may also occur when the provider initially acknowledges a
specific overpaid amount in writing to the State. If a Federal review (such as an audit) indicates
that a State has failed to identify an overpayment, the overpayment is considered discovered on
the date the Federal official first notifies the State in writing of the overpayment and specifies a
dollar amount subject to recovery (42 CFR § 433.316).

Texas regulations require providers to repay or make arrangements to repay identified
overpayments or other erroneous payments as identified by the State agency (Texas
Administrative Code, Program Violation, § 371.1617(5)(K) and Texas Medicaid Provider
Procedures Manual, Volume 1, § 1.7(5)(K)). However, Texas regulations do not require
providers to refund Medicaid overpayments within a specified time period.

Acute-Care Hospitals

This audit is part of a multistate review of credit balances at acute-care hospitals, nursing
facilities, and certain noninstitutional providers. This audit focused on acute-care hospitals in
Texas. 2

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether acute-care hospitals reconciled Medicaid credit
balances in patient accounts and refunded Medicaid overpayments to the State agency.

Scope

Of the 244 acute-care hospitals with payments as of the quarter ended September 30, 2010,
totaling $598,240,434, we randomly sampled 8 hospitals. We reviewed the hospitals’ patient
accounts as of the quarter ended June 30, 2012. The 8 hospitals had 4,148 patient accounts
containing Medicaid payments with credit balances, totaling $796,093. One of the eight
hospitals had no patient accounts containing credit balances that were unresolved for 60 days. 3
The sampling frames for the remaining 7 hospitals had 3,876 patient accounts with unresolved
credit balances totaling $575,029, as shown in the following table.




2
    Our audit did not include long-term-care or specialized-care hospitals.
3
    Credit balances in our sampling frames were unresolved for at least 60 days.

                                                             2
               Table: Patient Accounts With Unresolved Credit Balances


               Length of Time       Number of Patient       Amount of Unresolved
                Unresolved             Accounts               Credit Balances
             60–180 days                     322                    $116,577
             181–365 days                    759                     138,978
             366 days–2 years              1,422                     165,912
             More than 2 years             1,373                     153,562
               Total                       3,876                    $575,029

Of the 3,876 patient accounts, we reviewed a sample of 148 accounts totaling $48,116.

We did not review the overall internal control structure of the State agency or the hospitals. We
limited our internal control review to obtaining an understanding of the policies and procedures
that the hospitals used to review and reconcile patient account credit balances and refund to the
State agency any Medicaid overpayments.

We conducted our audit from July 2012 through September 2013 and performed fieldwork at
the State agency’s offices in Austin, Texas, and at the eight hospitals or offsite locations.

Methodology

To accomplish our objectives, we:

   •   reviewed applicable Federal laws and regulations and State agency policy guidelines
       pertaining to Medicaid overpayments;

   •   discussed with State agency personnel the State agency’s policies and procedures for
       identifying and recovering Medicaid overpayments for hospitals;

   •   created a sampling frame for the first stage of our sample design, consisting of 244
       hospitals, from which we randomly selected 8 (Appendix A);

   •   reviewed the selected hospitals’ policies and procedures for reviewing and reconciling
       credit balances and refunding Medicaid overpayments to the State agency;

   •   determined the hospitals’ total number and associated dollar amount of all patient account
       credit balances and reconciled the patient accounts with the hospitals’ accounting records
       to identify total credit balances with Medicaid payments;

   •   created sampling frames of patient accounts for 7 of the 8 selected hospitals for the
       second stage of our sample design;

   •   selected a random sample of 30 patient accounts from each of the 3 hospitals that had
       more than 30 patient accounts with credit balances (Appendix A);


                                                3
   •   reviewed all the patient accounts from 4 hospitals (Appendix A);

   •   reviewed patient payment records, patient account details, and additional support for each
       of the selected patient accounts to determine whether there were overpayments that
       should be refunded to the State agency;

   •   calculated the Federal share for the patient accounts with overpayments due back to the
       State agency;

   •   estimated the statewide unrecovered Medicaid overpayments associated with unresolved
       credit balances that should be refunded to the State agency; and

   •   discussed the results of our review with the selected hospitals and the State agency.

See Appendix A for details on our sample design and methodology and Appendix B for
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Of the eight hospitals in our sample, one hospital always reconciled patient accounts and
refunded associated Medicaid overpayments to the State agency. However, the seven
remaining hospitals in our sample did not always reconcile patient account credit balances and
refund to the State agency the associated Medicaid overpayments. One of these seven
hospitals reported most of its overpayments, but the State agency had not recovered the
overpayments during our fieldwork. For these seven hospitals, we sampled a total of 148
patient accounts with both Medicaid payments and credit balances and found that 81
contained Medicaid overpayments and 67 did not. The Medicaid overpayments associated
with the 81 patient accounts totaled $30,057 ($18,472 Federal share).

On the basis of these sample results, we estimated that the State agency could recover an
additional $15,299,033 ($10,538,912 Federal share) from hospitals and obtain future savings if
it enhanced its efforts to recover Medicaid overpayments in hospitals’ accounts.

The hospitals did not identify and refund Medicaid overpayments because the State agency
did not require them to exercise reasonable diligence in reconciling patient account credit
balances to determine whether overpayments had been made. Also, the State agency did not




                                                4
require hospitals to submit reports that showed all identified Medicaid overpayments recorded as
credit balances in the hospitals’ accounting systems. 4

MEDICAID OVERPAYMENTS NOT REFUNDED

The Texas Administrative Code defines an overpayment as the amount received in excess of the
amount to which the provider is entitled, whether obtained through error, misunderstanding, or
misapplication. The Texas Administrative Code, Program Violation, § 371.1617(5)(K), and the
Texas Medicaid Provider Procedures Manual, Volume 1, § 1.7(5)(K), require providers to repay
or make arrangements to repay identified overpayments or other erroneous payments as
identified by the State agency.

Of the 148 patient accounts in our sample, 81 contained Medicaid overpayments totaling $30,057
($18,472 Federal share) that had not been refunded to the State agency before our audit. The
overpayments were caused by duplicate payments, which occurred when Medicaid paid more than
once for the same service; billing errors, which included overstated billed amounts; the discovery
that other insurance was the primary payer on the account; and previous payments being denied
because of subsequent audits.

INADEQUATE OVERSIGHT AND LACK OF
REVIEW AND REPORTING REQUIREMENTS

The hospitals did not identify and refund Medicaid overpayments because the State agency did
not require them to exercise reasonable diligence in reconciling patient account credit balances
to determine whether overpayments had been made. For example, the State agency did not
require hospitals to inform the State agency of the Medicaid credit balances in their accounts or
to return identified overpayments within a specified time period.

MEDICAID OVERPAYMENTS AND ESTIMATED STATEWIDE RECOVERY

Of the 148 patient accounts with both Medicaid payments and credit balances in our sample, 81
contained overpayments totaling $30,057 ($18,472 Federal share) paid to 7 hospitals. (See
Appendix B for details of our sample results.) Also, we estimated that the State agency could
recover an additional $15,299,033 ($10,538,912 Federal share) from hospitals and obtain future
savings by requiring and ensuring that all hospitals exercise reasonable diligence in reconciling
patient account credit balances and refund the associated Medicaid overpayments. (See
Appendix B for details of our statewide estimate.)

RECOMMENDATIONS

We recommend that the State agency:

    •   refund the $18,472 Federal share to the Federal Government for overpayments paid to the
        selected hospitals and
4
 A Federal requirement that providers must report and repay overpayments within a certain time period was added to
section 1128J of the Act by section 6402(a) of the Patient Protection and Affordable Care Act, P.L. No. 111-148.
CMS will issue Medicaid regulations in the future to establish Federal policies and procedures to implement the law.

                                                         5
   •   enhance its efforts to recover additional overpayments, estimated at $15,299,033
       ($10,538,912 Federal share), from hospitals and realize future savings by requiring and
       ensuring that hospitals exercise reasonable diligence in reconciling patient account credit
       balances and refunding the associated Medicaid overpayments within a specified time
       period.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations.
The State agency described corrective actions that it had taken or planned to take in response to
our recommendations. The State agency’s comments are included in their entirety as
Appendix C.




                                                6
APPENDIXES
                                                                                                      Page 1 of 2

                    APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of certain acute-care hospitals 1 in Texas that received a Medicaid
payment during the quarter ended September 30, 2010.

SAMPLING FRAME

The State agency provided a database of Texas Medicaid payments for all acute-care services
for Federal fiscal year 2010. This database consisted of 49,372,493 claims totaling
$8,147,747,591. We extracted claims having the provider type code 61, representing acute-care
hospitals, and created a table. From this table, we extracted all hospital claims for the quarter
ended September 30, 2010, and summarized the table by provider number, which resulted in 587
hospitals with 1,003,877 claims totaling $607,060,642. We eliminated hospitals with provider
specialty codes 93 and 82, and we eliminated all hospitals with less than $100,000 in paid claims.
The resulting table consisted of 246 hospitals with 979,814 claims totaling $600,325,863 for the
quarter ended September 30, 2010. The State officials identified two hospitals that were
inactive because of sanctions, and we removed them from the table. The resulting sampling
frame consisted of 244 hospitals with 977,488 claims totaling $598,240,434.

SAMPLE UNIT

The primary sample unit was a Medicaid hospital. The secondary sample unit was a patient
account with a Medicaid payment and a credit balance that was at least 60 days old as of
June 30, 2012.

SAMPLE DESIGN

We used a two-stage sample design. The first stage consisted of hospitals, and the second stage
consisted of patient accounts with Medicaid payments and credit balances.

SAMPLE SIZE

We selected a random sample of eight hospitals as the primary units. For the secondary units,
we selected a random sample of 30 patient accounts from each of 3 hospitals (90 patient
accounts) and all patient accounts with Medicaid credit balances from 4 hospitals (58 patient
accounts) for a total of 148 patient accounts in the amount of $48,116. 2 We did not select
secondary units from one hospital because the hospital had no patient accounts with unresolved
Medicaid credit balances of 60 days or more.

1
 As described below, our audit did not include hospitals with provider specialty codes 93 (“Hospital – Other/Out of
State”) and 82 (“Hospital – Long Term or Specialized Care”).
2
  For one hospital, we reviewed all patient accounts because the sampling frame was slightly larger than our sample
size of 30.
                                                                                    Page 2 of 2

SOURCE OF RANDOM NUMBERS

We generated the random numbers with Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.
METHOD OF SELECTING SAMPLE ITEMS

For the primary units, we consecutively numbered the hospitals in our sampling frame from 1 to
244. After generating the eight random numbers, we selected the corresponding sampling frame
items. For the three hospitals from which we selected a secondary random sample, we
consecutively numbered the patient accounts in each of the three sampling frames. After
generating the 30 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of Medicaid overpayments.
                       APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                       SAMPLE RESULTS OF MEDICAID OVERPAYMENTS


                                                Amount of Actual            Federal Share of
                      Hospital
                                                 Overpayments                Overpayments
                      Hospital 1                         $248                        $165
                      Hospital 2                           548                        373
                      Hospital 3                         1,278                        879
                      Hospital 4                             0                          0
                      Hospital 5                          762                         474
                      Hospital 6                       22,064                      13,020
                      Hospital 7                          521                         322
                      Hospital 8                        4,636                       3,239
                       Total                         $30,057                      $18,472

                        STATEWIDE ESTIMATE OF POTENTIAL SAVINGS 1

                                                                                                             Value
                                                                                                               of
                                                                        Number              Value of      Overpayments
        Frame         Value of         Sample        Value of      of Overpayments       Overpayments      in Sample
         Size          Frame            Size         Sample            in Sample           in Sample        (Federal
                                                                                                             Share)

        3,876        $575,029            148          $48,116              81                   $30,057     $18,472


                                      Estimated Value of Overpayments

                         (Limits Calculated for a 90-Percent Confidence Interval)

                           Point estimate                        $15,329,090
                           Lower limit                            (6,340,716)
                           Upper limit                            36,998,896

                            Estimated Value of Overpayments (Federal Share)

                         (Limits Calculated for a 90-Percent Confidence Interval)

                           Point estimate                          $10,557,384
                           Lower limit                              (4,602,867)
                           Upper limit                              25,717,634



1
    The estimated value of the overpayments includes the value of overpayments in the sample.
                                                                                                                 Page 1 of3



             APPENDIX C: STATE AGENCY COMMENTS 





                   TEXAS HEALTH AND HUMAN SERVICES COMMISSION



                                                                                              KYLE L JANEK, M.D
                                                                                             EXECUTIVE C'O\tMISSJO:>. ER




                                                 April4, 2014



Ms. Patricia Wheeler
Regional Inspector General tor Audit Services
Office oflnspector General, Oftice of Audit Services
II 00 Commerce, Room 632
Dallas, Texas 75242

Reference Report Number A-06-11-00060

Dear Ms. Wheeler:

The Texas Health and Human Services Commission (HHSC) received a draft audit report
entitled ..Acute-Care Hospitals in Texas Did Not Always Reconcile Invoice Records With Credit
Balances and Refund to the State Agency the Associated Medicaid Overpayments" from the
Department of Health and Human Services Office of Inspector General. The cover letter, dated
March 5, 2014, requested that HHSC provide written comments, including the status ofactions
taken or planned in response to report recommendations.

I appreciate the opportunity to respond. Please find the attached HHSC management response
which: (a) includes comments related to the content of the findings and recommendations; and
(b) details actions HHSC has completed or planned.

If you have any questions or require additional information, please contact David M. Griffith,
HHS Risk and Compliance Officer. Mr. Griffith may be reached by telephone at (512) 424-6998
or by e-mail at David.Griffith@hhsc.state.tx.us.

Sincerely,



KL'2,~l
Attachment



P. 0 . Box 13247   •   Austin. Texas 78711   •   4900 North Lamar, Austin. Texas 78751   •   (512) 424-6500
                                                                                                    Page 2 of3




HHSC Management Response - Credit Balances Associated with Medicaid Overpayments
April4, 2014
Page 2


DHHS- OIG Recommendation: We recommend that the State agency enhance its efforts to
recover additional overpayments, estimated at $15,299,033 (SJ0,538,912 Federal share),jrom
hospitals and realize future savings by requiring and ensuring that hospitals exercise reasonable
diligence in reconciling patient account credit balances and refimding the associated Medicaid
overpayments within a spec(fied time period.

HHSC Management Response:

       Actions Planned: 	      HHSC will work with TMHP to strengthen provider education and
                               outreach to ensure hospitals exercise reasonable diligence in
                               reconciling patient account balances and refunding associated
                               Medicaid overpayments within a specified time period. HHSC
                               will evaluate existing Texas Administrative Code (TAC) Rules and
                               Medicaid Managed Care Contract requirements for possible
                               revision.

       Estimated Completion Date:           Within 90 days of receipt ofthe final report

       Title of Responsible Person:         Third Party Liability Manager
                                                                                               Page 3 of3




                     Texas Health and Human Services Commission 

                              Management Response to the 

    U.S. Department of Health and Human Services Office of Inspector General Report: 


             Acute-Care Hospitals in Texas Did Not Always Reconcile Invoice Records 

               With Credit Balances and Refund to the State Agency the Associated 

                                     Medicaid Overpayments 


Summary of Management Response

The Texas Medicaid and Healthcare Partnership (TMHP), the Texas Medicaid Claims
Administrator, is contractually required to conduct credit balance audits of Medicaid providers as
part of the third party liability (TPL) function. Credit balance audits are regularly conducted at
hospital and other provider facilities. As part of the audit process, HHSC has and continues to
recover overpayments related to provider credit balances. In state fiscal year 2012, auditors
conducted 249 facility audits that resulted in credit balance recoveries of$16,505,145. In state
fiscal year 2013, credit balance auditors conducted 217 facility audits that resulted in recoveries
of$12,982,043. The decrease from state fiscal year 2013 to state fiscal year 2012 resulted from
the transition of a majority of the Texas Medicaid client population into managed care beginning
on March I, 2012. Given the transition and acceleration of the Medicaid client population into
managed care, HHSC anticipates that future Medicaid fee for service TPL recovery categories,
including credit balance recoveries, will continue to decrease significantly.

In October 2013, HHSC provided documentation to the auditors indicating that $14,811of the
$18,472 identified by the auditors as patient account credit balances containing Medicaid
overpayments, had been collected. This left a balance, as of October 2013, of $3,661 to be
collected and refunded to CMS. Since October 2013, TMHP has recovered and refunded to
CMS all but $1,924.

Detailed responses to each ofthe recommendations included in the report follow.

DHHS- OIG Recommendation: We recommend that the State agency refund the $/8,472
Federal share to the Federal Government for overpayments paid to the selected hospitals.

       Actions Planned: 	     HHSC will refund the federal share of$3.05 1, the remaining credit
                              balance not recovered as of the date of the draft report.

       Estimated Completion Date:           Within 60 days of receipt of the final report

       Title of Responsible Person:        Third Party Liability Manager
